U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 20, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Apple, Inc. v. Optis Cellular Tech., LLC, No. 21-118
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 26, 2021.
The government’s response is now due, after one extension, on September 27, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 27, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0118
APPLE INC.
OPTIS CELLULAR TECHNOLOGY, LLC, ET AL.

CATHERINE MARY AGNES CARROLL
WILMER CUTLER PICKERING HALE AND
DORR
1875 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
202-663-6072
CATHERINE.CARROLL@WILMERHALE.COM
MARK S. DAVIES
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET
WASHINGTON, DC 20005
202-339-8631
MARK.DAVIES@ORRICK.COM
JEREMY C. DOERRE
TILLMAN WRIGHT PLLC
3440 TORINGDON WAY
SUITE 310
CHARLOTTE, NC 28277
704-248-4883
JDOERRE@TI-LAW.COM
JOSHUA LANDAU
COMPUTER & COMMUNICATIONS INDUSTRY
ASSOCIATION
25 MASSACHUSETTS AVENUE, NW
SUITE 300C
WASHINGTON, DC 20001-1430
202-783-0070
JLANDAU@CCIANET.ORG

CHRISTY LEA
KNOBBE MARTENS
2040 MAIN ST., 14TH FL.
IRVINE, , CA 92614
949-500-6972
CHRISTY.LEA@KNOBBE.COM
BRIAN E. SCARPELLI
ACT / THE APP ASSOCIATION
1401 K STREET NW
SUITE 501
WASHINGTON, DC 20005
202-420-7487
BSCARPELLI@ACTONLINE.ORG
MARK D. SELWYN
WILMER CUTLER PICKERING HALE AND
DORR LLP
2600 EL CAMINO REAL
SUITE 400
PALO ALTO, CA 94306
ADAM G. UNIKOWSKY
JENNER & BLOCK LLP
1099 NEW YORK AVE., N.W.
SUITE 900
WASHINGTON, DC 20001
202-639-6000
AUNIKOWSKY@JENNER.COM
ALYSON ZUREICK
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 WORLD TRADE CENTER
250 GREENWICH STREET
NEW YORK, NY 10007

